                         DEPARTMENT OF HEALTH Al"ID HUMAN SERVICES


                    OFFICE OF INSPECTOR GENERAL
                                           WASHINGTON, DC 2020 1




                                             JUN - 7 2012 

TO:                Marilyn Tavenner
                   Acting Administrator 

                   Centers for Medicare & Medicaid Services 


                                  /S/
FROM:              Stuart Wright
                   Deputy Inspector General
                     for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Part D Plans Generally Include Drugs Commonly
           Used by Dual Eligibles: 2012,OEI-05-12-00060


This memorandum report fulfills the annual reporting mandate from the Patient
Protection and Affordable Care Act of2010 (ACA) for 2012. The ACA requires that the
Office of Inspector General (OIG) conduct a study of the extent to which formularies
used by stand-alone prescription drug plans (PDP) and Medicare Advantage prescription
drug plans (MA-PD) under Medicare Part D include drugs commonly used by full-benefit
dual-eligible individuals (i.e., individuals who are eligible for both Medicare and
Medicaid and who receive full Medicaid benefits and assistance with Medicare premiums
and cost-sharing). 1 Pursuant to the ACA, OIG must annually issue a report, with
recommendations as :appropriate. This is the second report the OIG has produced to meet
this mandate. For the relevant text ofthe ACA, see Appendix A.

SUMMARY
As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of
2003 (MMA), comprehensive prescription drug coverage under Medicare Part D is
available to all Medicare beneficiaries through PDPs and MA-PDs (hereinafter referred
to collectively as Part D plans).2

For beneficiaries who are eligible for Medicare and Medicaid (hereinafter referred to as
dual eligibles), Medicare covers Part D plan premiums, deductibles, and other
cost-sharing up to a determined premium benchmark that varies by region. If dual
eligibles enroll in Part D plans with premiums higher than the regional benchmark, they
are responsible for paying the premiurh amounts above that benchmark.


I   ACA, P.L. 111-148 § 33 13(a), 42 U.S.c. § 1395w-101 note. 

2   MMA, P.L. 108-173 § 101, Social Security Act, § I 860D-I(a), 42 U.S.C. § 1395w-lOl(a). 

Page 2 – Marilyn Tavenner


To control costs and ensure the safe use of drugs, Part D plans are allowed to establish
formularies from which they may omit drugs from prescription coverage and control drug
utilization through utilization management tools.3 These tools include prior
authorization, quantity limits, and step therapy.4

The Centers for Medicare & Medicaid Services (CMS) annually reviews Part D plan
formularies to ensure that they include a range of drugs in a broad distribution of
therapeutic classes. CMS also assesses the utilization management tools present in each
formulary.

For this memorandum report, we determined whether the 272 unique formularies used by
the 3,107 Part D plans operating in 2012 cover the 200 drugs most commonly used by
dual eligibles. We also determined the extent to which those commonly used drugs are
subject to utilization management tools. To create the list of the 200 drugs most
commonly used by dual eligibles, we used the 2008 Medicare Current Beneficiary
Survey (MCBS). Of these 200 drugs, 191 are eligible for Part D prescription drug
coverage and 9 are not eligible for coverage under Part D.5

Overall, we found that the rate of Part D plan formularies’ inclusion of the 191 drugs
commonly used by dual eligibles is high, with some variation. On average, Part D plan
formularies include 96 percent of the 191 commonly used drugs. In addition, more than
60 percent of the commonly used drugs are included by all Part D plan formularies.
These results are largely unchanged from OIG’s findings from 2011, as stated in the
mandated report for that year.6

We also found that from 2011 to 2012, plan formularies increased the proportion of
unique drugs subject to utilization management tools. On average, formularies applied
utilization management tools to 24 percent of the unique drugs we reviewed in 2012,
compared to 19 percent of the unique drugs we reviewed in 2011.




3
  A formulary is a list of drugs covered by a Part D plan. Part D plans can exclude drugs from their
formularies and can control utilization for formulary-included drugs within certain parameters. Social
Security Act § 1860D-4(b) and (c), 42 U.S.C. § 1395w-104(b) and (c).
4
  Prior authorization—often required for very expensive drugs—requires that physicians obtain approval
from Part D plans to prescribe a specific drug. Quantity limits are intended to ensure that beneficiaries
receive the proper dose and recommended duration of drug therapy. Step therapy is the practice of
beginning drug therapy for a medical condition with the most cost-effective or safest drug therapy and
progressing if necessary to more costly or risky drug therapy.
5
  Eight of the two hundred commonly used drugs are statutorily excluded, and one is no longer available in
the United States.
6
  OIG, Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles, OEI-05-10-00390,
April 2011.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 3 – Marilyn Tavenner


BACKGROUND

The Medicare Prescription Drug Benefit
Beginning in 2006, the MMA made comprehensive prescription drug coverage under
Medicare Part D available to all Medicare beneficiaries.7 Medicare beneficiaries
generally have the option to enroll in a PDP and receive all other Medicare benefits on a
fee-for-service basis, or to enroll in an MA-PD and receive all of their Medicare benefits,
including prescription drug coverage, through managed care. As of February 2012,
33 million of the 48 million Medicare beneficiaries were enrolled in a Part D plan.8, 9

Part D plans are administered by private companies, known as plan sponsors, that
contract with CMS to offer prescription drug coverage in one or more PDP or MA-PD
regions. CMS has designated 34 PDP regions and 26 MA-PD regions.10 In 2012, plan
sponsors offer 3,107 unique Part D plans, with many plan sponsors offering multiple
Part D plans.

Dual Eligibles Under Medicare Part D
Approximately 9 million Medicare beneficiaries are dual eligibles. About 7 million dual
eligibles, referred to as “full-benefit dual eligibles,” receive full Medicaid benefits and
assistance with Medicare premiums and cost-sharing.11 Other dual eligibles receive
assistance with only their Medicare premiums or cost-sharing, depending on their level of
income and assets.

Dual eligibles are a particularly vulnerable population. Overall, most dual eligibles have
very low incomes: 55 percent have annual incomes below $10,000, compared to
6 percent of all other Medicare beneficiaries. Additionally, dual eligibles are in worse
health than the average Medicare beneficiary: half are in fair or poor health, twice the
rate of others in Medicare.12 Because of their health needs, dual eligibles typically use
more prescription drugs and health care services in general than other Medicare
beneficiaries.

Until December 31, 2005, dual eligibles received outpatient prescription drug benefits
through Medicaid. In January 2006, Medicare began covering outpatient prescription
drugs for dual eligibles through Part D plans.13



7
  MMA, P.L. 108-173 § 101, Social Security Act, § 1860D-1(a), 42 U.S.C. § 1395w-101(a).

8
  CMS, Medicare Advantage, Cost, PACE, Demo, and Prescription Drug Plan Contract Report—Monthly

Summary Report (data as of February 2012). Accessed at http://www.cms.hhs.gov on February 27, 2012. 

9
  Medicare Board of Trustees, The 2011 Annual Report of the Boards of Trustees of the Federal Hospital 

Insurance and Federal Supplementary Medical Insurance Trust Funds. Accessed at 

http://www.cms.hhs.gov on March 12, 2011. 

10
   CMS, Prescription Drug Benefit Manual (PDBM), Pub. 100-18, ch. 5, Appendixes 2 and 3. Accessed at 

http://www.cms.hhs.gov on January 23, 2012. 

11
   Kaiser Family Foundation, Dual Eligibles: Medicaid’s Role for Low-Income Beneficiaries, May 2011. 

Accessed at http://www.kff.org on January 23, 2012. 

12
   Ibid. 

13
   MMA, P.L. 108-173 § 101. 



Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 4 – Marilyn Tavenner


Medicare covers Part D plan premiums, deductibles, and other cost sharing for dual
eligibles up to a determined premium benchmark. The benchmark is a statutorily defined
amount that is based on the average premium amounts for Part D plans for each
region.14, 15 If dual eligibles enroll in Part D plans with premiums higher than the
regional benchmark, they are responsible for paying the premium amounts above that
benchmark.16

Dual eligibles’ assignment to Part D plans. When individuals become eligible for both
Medicare and Medicaid, CMS randomly assigns those individuals to PDPs unless they
have elected a specific Part D plan or have opted out of Part D prescription drug
coverage.17 CMS assigns dual eligibles to PDPs that meet certain requirements, such as
having a premium at or below the regional benchmark amount and offering basic
prescription drug coverage (or equivalent).18 Basic prescription drug coverage is defined
in terms of benefit structure (initial coverage, coverage gap, and catastrophic coverage),
and costs (initial deductible and coinsurance).

Some dual eligibles may be randomly assigned to PDPs that do not cover the specific
drugs they use. However, unlike the general Medicare population, dual eligibles can
switch plans at any time to find Part D plans that cover the prescription drugs they
require.19 When dual eligibles change plans, prescription drug coverage for their new
Part D plans becomes effective at the beginning of the following month.

CMS annually reassigns some dual eligibles to new PDPs if their current PDPs will have
premiums above the regional benchmark premium for the following year.20 CMS
reassigns dual eligibles who were randomly assigned to their current PDPs to new PDPs
that will have premiums at or below the regional benchmark premium.21 In addition,
CMS notifies dual eligibles who elected their current Part D plans that their plans will
have premiums above the regional benchmark premium. According to CMS, for 2012
CMS reassigned approximately 823,000 Medicare beneficiaries, including but not
exclusively dual eligibles, because of premium increases.




14
   42 CFR § 423.780(b)(2)(i). 

15
   Social Security Act, § 1860D-14(a)(3)(f), 42 U.S.C. § 1395w-114(a)(3)(f). Dual eligibles residing in

territories are not eligible to receive cost-sharing assistance from Medicare. As such, there are no

benchmarks for Part D plans offered in the territories. 

16
   Patient Protection and Affordable Care Act (ACA), P.L. 111-148 § 3303, Social Security Act, 

§ 1860D 14(a)(5), 42 U.S.C. § 1395w-114(a)(5). The ACA established a “de minimis” premium policy, 

whereby a Part D plan may elect to charge dual eligibles the benchmark premium amount if the Part D 

plan’s basic premium exceeds the regional benchmark by a de minimis amount. For 2012, CMS set the de 

minimis amount at $2 above the regional benchmark.

17
   PDBM, ch. 3, § 40.1.4. 

18
   Ibid. 

19
   Ibid., § 30.3.2. In general, Medicare beneficiaries can switch Part D plans only once a year during a 

defined enrollment period. 

20
   Ibid., § 40.1.5.

21
   Ibid. 



Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 5 – Marilyn Tavenner


Part D Prescription Drug Coverage
Under Part D, plans can establish formularies from which they may exclude drugs and
control drug utilization within certain parameters.22 These parameters are intended to
balance Medicare beneficiaries’ needs for adequate prescription drug coverage with
Part D plans’ needs to contain costs. Generally, a formulary must include at least two
drugs in each therapeutic category or class.23, 24 In addition, Part D plans must include
Part D-covered drugs in certain categories and classes.25

Part D plans may also control drug utilization by applying utilization management tools.
These tools include requiring prior authorization to obtain drugs that are on plan
formularies, establishing quantity limits, and requiring step therapy.26 Utilization
management tools can help Part D plans and the Part D program limit the cost of drug
coverage by placing restrictions on the use of certain drugs.

In addition to these drug coverage decisions made with regard to individual formularies,
certain categories of drugs are excluded from Medicare Part D prescription drug coverage
as mandated by the MMA.27 For example, prescription vitamins and mineral products,
nonprescription drugs, barbiturates, and benzodiazepines are excluded from Part D
prescription drug coverage.28

CMS Efforts To Ensure Prescription Drug Coverage
Formulary review. CMS annually reviews Part D plan formularies to ensure that they
include a range of drugs in a broad distribution of therapeutic categories or classes and
include all drugs in specified therapeutic categories or classes.29 During this review,
CMS analyzes formularies’ coverage of the drug classes most commonly prescribed for
the Medicare population. CMS intends for Part D plans to cover the most widely used
medications, or therapeutically alternative medications (e.g., drugs from the same
therapeutic category or class), for the most common conditions. CMS uses Part D
prescription drug data to identify the most commonly prescribed classes of drugs.30



22
   A formulary is a list of drugs covered by a Part D plan. Part D plans can exclude drugs from their 

formularies and can control utilization for formulary-included drugs within certain parameters. Social 

Security Act § 1860D-4(b) and (c), 42 U.S.C. § 1395w-104(b) and (c). 

23
   PDBM, ch. 6, § 40.2.1. 

24
   Therapeutic categories or classes classify drugs according to their most common intended uses. For

example, cardiovascular agents compose a therapeutic class intended to affect the rate or intensity of

cardiac contraction, blood vessel diameter, or blood volume. 

25
   ACA, P.L. 111-148 § 3307, Social Security Act, § 1860D 4(b)(3)(G), 42 U.S.C. § 1395w 104(b)(3)(G). 

26
   Prior authorization, often required for very expensive drugs, requires that physicians obtain approval

from Part D plans to prescribe a specific drug. Quantity limits are intended to ensure that beneficiaries 

receive the proper dose and recommended duration of drug therapy. Step therapy is the practice of 

beginning drug therapy for a medical condition with the most cost-effective or safest drug therapy and 

progressing if necessary to more costly or risky drug therapy. PDBM, ch. 6, § 30.2.2. 

27
   MMA, P.L. 108-173 § 101, Social Security Act, § 1860D-2(e), 42 U.S.C. § 1395w-102(e).

28
   Social Security Act §§ 1860D-2(e)(2), 1927(d)(2), 42 U.S.C. §§ 1395w-102(e)(2), 1396r-8(d)(2).

29
   PDBM, ch. 6, §§ 30.2.1 and 30.2.5. 

30
   Ibid., § 30.2.7.



Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 6 – Marilyn Tavenner


CMS also assesses each formulary’s utilization management tools to ensure consistency 

with current industry standards and with standards that are widely used with drugs for the 

elderly and people with disabilities.31, 32, 33


Exceptions and appeals process. CMS has implemented an exceptions and appeals 

process whereby beneficiaries can request coverage of nonformulary drugs. 

Beneficiaries apply to their Part D plans for exceptions to obtain coverage of 

nonformulary drugs. Generally, Part D plans must make determinations within 72 hours 

or, for expedited requests, within 24 hours.34 If their plans make negative determinations, 

beneficiaries have the right to appeal.35 If their Part D plans deny their appeals, 

beneficiaries would need to get prescriptions from their physicians for therapeutically 

alternative drugs that are covered by their plans. 


Transitioning new enrollees to Part D. CMS requires that Part D plans establish a 

transition process for new enrollees (including dual eligibles) who are transitioning to

their respective Part D plans either from different Part D plans or from other prescription 

drug coverage. During Medicare beneficiaries’ first 90 days under a new Part D plan, the 

new plan must provide one temporary fill of a prescription when beneficiaries request 

either a drug that is not in the plan’s formulary or a drug that requires prior authorization 

or step therapy under the formulary’s utilization management tools.36 The temporary fill 

accommodates beneficiaries’ immediate drug needs the first time they attempt to fill a 

prescription. The transition period also allows beneficiaries time to work with their 

prescribing physicians to obtain prescriptions for therapeutically alternative drugs or to 

request formulary exceptions from Part D plans. 


Related Office of Inspector General Work
In 2006, OIG published a report assessing the extent to which PDP formularies included
drugs commonly used by dual eligibles under Medicaid. The study found that PDP
formularies included between 76 and 100 percent of the 178 drugs commonly used by
dual eligibles under Medicaid prior to the implementation of Part D. Approximately half
of the 178 commonly used drugs were covered by all formularies.37

In 2011, OIG issued the first annual mandated memorandum report examining dual
eligibles’ access to drugs under Medicare Part D.38 In the current memorandum report,
we compare the results from 2011 and 2012.

31
   PDBM, ch. 6, § 30.2.2.

32
   Ibid., § 30.2.7.

33
   CMS looks to appropriate guidelines from expert organizations such as the National Committee for 

Quality Assurance, the Academy of Managed Care Pharmacy, and the National Association of Insurance 

Commissioners.

34
   PDBM, ch. 18, §§ 130.1 and 130.2.

35
   PDBM, ch. 18, § 60.1. 

36
   Ibid., ch. 6, § 30.4.4. 

37
   OIG, Dual Eligibles’ Transition: Part D Formularies’ Inclusion of Commonly Used Drugs, 

OEI-05-06-00090, January 2006. 

38
   OIG, Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles, OEI-05-10-00390, 

July 2011. 



Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 7 – Marilyn Tavenner


METHODOLOGY

Scope
As mandated in the ACA, this study assessed the extent to which drugs commonly used
by dual eligibles are included by Part D plan formularies. To make this assessment, we
evaluated formularies for Part D plans operating in 2012. As part of our assessment, we
included dual eligibles’ enrollment data from March 2012, the most recent enrollment
data available from CMS at the time of our study. We also compared the results of our
2012 study with those of our 2011 study.39

The ACA did not define which drugs commonly used by dual eligibles we should review.
We defined drugs commonly used by dual eligibles as the 200 drugs with the highest
utilization by dual eligibles as reported in the 2008 Medicare Current Beneficiary Survey
(MCBS). We used the MCBS because it contains drugs that dual eligibles received
through multiple sources (e.g., Part D, Medicaid, and the Department of Veterans
Affairs) and, as such, it provides a comprehensive picture of drug utilization. Of the
200 most commonly used drugs identified using the MCBS, 191 are eligible for coverage
under Part D. For purposes of this memorandum report, we refer to these 191 drugs
eligible for coverage under Part D as the most commonly used drugs.

The list of 191 commonly used drugs referenced in this 2012 memorandum report is
similar but not identical to the list of drugs referenced in the 2011 memorandum report.
Specifically, of the 191 drugs commonly used by dual eligibles listed in the 2011 report,
184 drugs (92 percent) are also listed in this 2012 report.

Both the 2011 and 2012 studies went beyond the ACA’s mandate by reviewing drug
coverage for all dual eligibles under Medicare Part D, rather than only for full-benefit
dual eligibles. With the data available for this study, we could not confidently identify
and segregate full-benefit dual eligibles and the drugs they used from the total population
of dual eligibles.

We also went beyond the ACA’s mandate in both the 2011 and 2012 reports by
examining the utilization management tools that Part D plan formularies apply to the
drugs commonly used by dual eligibles. These tools may affect dual eligibles’ access
even in cases where formularies include the commonly used drugs. Analyzing the extent
to which Part D plan formularies apply these tools to drugs commonly used by dual
eligibles allows us to provide a comprehensive picture of Part D plan formularies’
coverage of, and dual eligibles’ access to, those drugs.

Data Sources
MCBS. We used 2008 MCBS Cost and Use data to create a list of 200 drugs commonly
used by dual eligibles. The MCBS Cost and Use data contain information on hospitals,
physicians, and prescription drug costs and utilization. The 2008 MCBS Cost and Use
data are the most recent data available.

39
 OIG, Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles, OEI-05-10-00390,
April 2011.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 8 – Marilyn Tavenner



The MCBS is a CMS-conducted continuous, multipurpose survey of a representative
national sample of the Medicare population, including dual eligibles. Sampled Medicare
beneficiaries are interviewed three times per year and asked what drugs they are taking
and whether they have started taking any new drugs since the previous interview. The
MCBS also includes Part D prescription drug events for surveyed Medicare beneficiaries.
In 2008, the MCBS surveyed 11,723 Medicare beneficiaries, of which 2,229 were dual
eligibles who had used prescription drugs during the year (out of a total of
2,234 dual-eligible survey respondents).

First Databank National Drug Data File. We used the November 2011 First DataBank
National Drug Data File to identify the drug product information for the drugs on our list
of 200 drugs commonly used by dual eligibles. The National Drug Data File is a
database containing information—such as drug name, therapeutic class, and the unique
combination of active ingredients—for each drug defined by the Food and Drug
Administration’s National Drug Code (NDC).40

Part D plan data. In December 2011, we collected from CMS the plan and formulary
data for Part D plans operating in 2012. The 2012 Part D plan data provide information
such as the State in which a Part D plan is offered, whether the Part D plan is a PDP or an
MA-PD, and whether the Part D plan premium is below the regional benchmark. The
2012 Part D formulary data include Part D plans’ formularies and utilization management
tools. In 2012, there are 272 unique formularies offered by the 3,107 Part D plans.

We also collected 2012 Part D plan enrollment data. These data provide the number of
dual eligibles enrolled in each Part D plan as of February 2012.

Determining the Most Commonly Used Drugs
To determine the drugs most commonly used by dual eligibles, we took the following
steps:

     1.	 Created a list of all drugs reported by dual eligibles surveyed in the MCBS. We
         excluded respondents from territories because they are not eligible to receive
         cost-sharing assistance under Part D. There were 159,046 drug events listed for
         2,229 dual eligibles in the MCBS.

     2.	 Collapsed this list to a list of drugs based on their active ingredients, using the
         Ingredient List Identifier located in First DataBank’s National Drug Data File.
         For example, a multiple-source drug such as fluoxetine hydrochloride (the active
         ingredient for the multiple-source brand-name drug Prozac) has only one entry on
         our list, covering all strengths of both the brand-name drug Prozac and the generic
         versions of fluoxetine hydrochloride available. From this point forward, unless
         otherwise stated, we will use the term “drug” to refer to any drug in the same
         Ingredient List Identifier category, and the term “unique drug” to refer to an NDC

40
  An NDC is a three-part universal identifier that specifies the drug manufacturer’s name, the drug form
and strength, and the package size.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 9 – Marilyn Tavenner


       corresponding to a drug, as a given drug can have multiple NDCs. This process
       left 158,544 drug events associated with 880 drugs. There were 502 drug events
       in the MCBS that could not be matched with an Ingredient List Identifier in First
       DataBank’s National Drug Data File.

   3.	 Ranked all drugs by their frequency of utilization based on weighting from the
       MCBS sample design.

   4.	 Selected the 200 drugs with the highest utilization by dual eligibles. For a full list
       of the top 200 drugs, see Appendix B.

   5.	 Removed all drugs excluded under Part D. Of the 200 drugs with the highest
       utilization, 191 are eligible under Part D, 8 fell into drug categories excluded
       under Part D, and 1 is no longer available in the United States. For details on the
       nine excluded drugs, see Appendix C.

Formulary Analysis
We analyzed the 272 unique Part D plan formularies to determine formulary inclusion
rates for the 191 drugs commonly used by dual eligibles. We counted a drug as included
in a Part D plan’s formulary if the formulary included the active ingredient category.
When a drug included multiple ingredients that could be dispensed separately and
combined by the patient to the same effect as the combined drug, we treated the drug as
included if the ingredients were included in the formulary either separately or in
combination.

Utilization management tools. In addition, we determined the extent to which Part D
plans apply utilization management tools to the 191 drugs that we reviewed. The tools
that we reviewed are prior authorization, quantity limits, and step therapy.

To determine the extent to which the 191 commonly used drugs are subject to utilization
management tools, we conducted an analysis of the NDCs that correspond to the
commonly used drugs. Part D plan formularies do not apply utilization management
tools at the active ingredient level. Rather, Part D plan formularies apply utilization
management tools at a more specific level that identifies whether a drug is brand-name or
generic and its dosage form, strength, and route of administration, irrespective of package
size. To conduct this analysis, we determined the NDCs (unique drugs) associated with
each of the 191 commonly used drugs that are on each Part D formulary. We then
calculated the percentage of unique drugs to which each Part D plan formulary applies
utilization management tools.

Enrollment Analysis
We weighted the formulary analysis by dual-eligible enrollment and weighted the
utilization management tool analysis both by dual-eligible enrollment and Medicare
enrollment. To do this, we applied February 2012 enrollment data to 2012 Part D plans.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 10 – Marilyn Tavenner


Data Limitations
We did not assess individual dual eligibles’ prescription drug use or whether individual
dual eligibles are enrolled in Part D plans that include the specific drugs that each
individual uses. Because we relied on a sample of dual eligibles responding to the MCBS
to develop our list of commonly used drugs, it is possible that a particular dual eligible
might not use any of the drugs on our list. However, the drugs most commonly used by
dual-eligible MCBS survey participants in 2008 account for 87 percent of all
prescriptions dispensed to the dual-eligible respondents in the 2008 MCBS.

Because the lists of 191 commonly used drugs in the 2011 and 2012 memorandum
reports are not identical, changes in formulary inclusion rates and application of
utilization management tools between 2011 and 2012 may reflect changes as to which
specific drugs were included in the lists, rather than changes regarding any specific drug.
However, the two lists largely overlap; 92 percent of the drugs reviewed in the
2011 memorandum report are the same as those reviewed in this 2012 memorandum
report.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Part D Plan Formularies Include Between 83 and 100 Percent of the Drugs
Commonly Used by Dual Eligibles
On average, Part D plan formularies include 96 percent of the drugs commonly used by
dual eligibles. Of the 272 unique formularies used by Part D plans in 2012,
23 formularies include 100 percent of the commonly used drugs. At the other end of the
inclusion range, one formulary includes 83 percent of the commonly used drugs. CMS
generally requires Part D plan formularies to include at least two drugs, rather than all
drugs, in each therapeutic category or class. Therefore, Part D plan formularies may still
meet CMS’s formulary requirements even if they do not include all drugs identified as
commonly used by dual eligibles.

Part D plan formularies’ inclusion of the drugs commonly used by dual eligibles in 2012
is nearly identical to that of 2011. The average rate of inclusion—96 percent—was
unchanged between 2011 and 2012. In addition, we found that in 2011 Part D plan
formularies included between 82 and 100 percent of the drugs commonly used by dual
eligibles, whereas in 2012 they included between 83 and 100 percent of the drugs.

Nationally, PDP and MA-PD formularies have the same average rates of inclusion—
96 percent—of the drugs commonly used by dual eligibles. PDP formulary inclusion
ranges from 86 to 100 percent of the commonly used drugs, with MA-PD formulary
inclusion ranging from 83 to 100 percent. Thirty formularies—11 percent—are offered
by both PDPs and MA-PDs.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 11 – Marilyn Tavenner


Regionally, all dual eligibles have the choice of a Part D plan that includes at least
97 percent of the commonly used drugs. Every PDP region has a plan that includes at
least 99 percent of the commonly used drugs, and every MA-PD region has a plan that
covers at least 97 percent of these drugs. Appendix D provides a breakdown of
formulary inclusion by PDP and MA-PD region.

On average, formularies for Part D plans with premiums below the regional benchmark
include 95 percent of the drugs commonly used by dual eligibles. The percentage of
drugs included by Part D plans with premiums below the regional benchmark is
important because dual eligibles are automatically enrolled in, or annually reassigned to,
these plans. For drugs commonly used by dual eligibles, formularies for Part D plans
with premiums below the regional benchmark have a rate of inclusion that ranges from a
low of 86 percent to a high of 100 percent. Approximately 76 percent of dual eligibles
are enrolled in such Part D plans.

Ninety-nine percent of dual eligibles are enrolled in Part D plans that include at least
90 percent of the drugs commonly used by dual eligibles. Of the approximately
9.2 million dual eligibles, 99 percent are enrolled in Part D plans that use formularies that
include at least 90 percent of the commonly used drugs. Only 1 percent of dual eligibles
are enrolled in Part D plans that use formularies that include less than 90 percent of these
drugs. Table 1 provides a breakdown of dual eligibles’ enrollment in Part D plans by the
plans’ formulary inclusion rates.

    Table 1: Enrollment of Dual Eligibles in Part D Plans and Formulary Inclusion of
    Commonly Used Drugs
                                                                Number of Dual Eligibles               Percentage of Dual
      Part D Plans That Include:
                                                                              Enrolled*                 Eligibles Enrolled
      100% of commonly used drugs                                                     209,000                              2%
      95% to 99% of commonly used drugs                                             3,504,000                             38%
      90% to 94% of commonly used drugs                                             5,336,000                             58%
      83% to 89% of commonly used drugs                                               131,000                              1%
         Total                                                                      9,180,000                         100%**
    *Rounded to the nearest 1,000. 

    ** Percentages do not add to 100 percent because of rounding. 

    Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles and dual eligibles’ enrollment, 2012. 



The percentage of dual eligibles enrolled in Part D plans that include at least 90 percent
of the drugs commonly used by dual eligibles increased between 2011 and 2012, from
90 percent to 99 percent.

Sixty-one Percent of the Drugs Commonly Used by Dual Eligibles Are Included in
All Part D Plan Formularies
Because most of the commonly used drugs are included in a large percentage of
formularies, dual eligibles are guaranteed formulary inclusion of many of these drugs
regardless of the Part D plan in which they are enrolled. By drug, formulary inclusion
ranges from 44 percent to 100 percent. In other words, one drug commonly used by dual
eligibles is included in as few as 44 percent of Part D plan formularies, and 116 drugs are
included in all plan formularies. The average rate of formulary inclusion is 96 percent.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 12 – Marilyn Tavenner


Table 2 provides a summary of formulary inclusion rates. Appendix D provides
formulary inclusion rates for each of the commonly used drugs.
                    Table 2: Formulary Inclusion Rates of Commonly Used Drugs
                                                                        Percentage of the 191 Commonly
                      Percentage of the 272 Formularies
                                                                                   Used Drugs Included

                                                                                                           61%
                      100%
                                                                                                    (116 drugs)
                                                                                                           31%
                      85% to 99%
                                                                                                     (59 drugs)
                                                                                                            3%
                      75% to 84%
                                                                                                      (5 drugs)
                                                                                                            6%
                      44% to 74%
                                                                                                     (11 drugs)
                                                                                                         100%*
                         Total
                                                                                                    (191 drugs)
                     * Percentages do not add to 100 percent because of rounding. 

                     Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2012



The formulary inclusion rates of the drugs commonly used by dual eligibles in 2012 are
similar to those in 2011. The percentage of commonly used drugs included in all
formularies increased slightly between 2011 and 2012, from 58 percent to 61 percent.

Part D plan formularies include certain drugs less frequently than others. Of the
commonly used drugs, 6 percent (11 drugs) are included by less than 75 percent of Part D
plan formularies. Table 3 provides the percentage of formularies covering each of these
11 drugs. Eight of the eleven drugs are brand-name drugs, which are typically more
costly than generic drugs. Four of the eleven drugs are used to treat high blood pressure
and the remaining treat a variety of conditions including high cholesterol, high blood
phosphate levels, and insomnia.
Table 3: Drugs Included by Less Than 75 Percent of Part D Plan Formularies
                                                                                                                       Formulary
 Generic Name of Drug                                                                 Primary Indication(s)
                                                                                                                   Inclusion Rate

 Olmesartan/hydrochlorothiazide                                        Hypertension (high blood pressure)                   74%
 Olmesartan medoxomil*                                                 Hypertension (high blood pressure)                   74%
 Carisoprodol                                                                                   Muscle relaxant             73%
                                               Dyspepsia, peptic ulcer disease, gastroesophageal reflux
 Esomeprazole magnesium                                                                                                     71%
                                                                    disease, Zollinger-Ellison syndrome
 Rosiglitazone maleate                                                                      Insulin sensitizer              66%
 Sevelamer HCl                                        Hyperphosphatemia (high blood phosphate levels)                       65%
 Ezetimibe/simvastatin*                                                   Hyperlipidemia (high cholesterol)                 63%
 Eszopiclone*                                                                                         Insomnia              62%
 Irbesartan*                                                           Hypertension (high blood pressure)                   46%
 Irbesartan/hydrochlorothiazide*                                       Hypertension (high blood pressure)                   45%
 Levalbuterol tartrate                                    Asthma, chronic obstructive pulmonary disease                     44%
* These drugs also had low formulary inclusion rates in 2011. 

Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2012. 





Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 13 – Marilyn Tavenner


Although Part D formularies frequently omit these 11 drugs, they all cover other
therapeutically alternative drugs. For all 11 drugs, 100 percent of formularies cover at
least 1 therapeutically alternative drug that is also on the list of 191 drugs commonly used
by dual eligibles.

The number of drugs with inclusion rates below 75 percent increased from 8 in 2011 to
11 in 2012. There are five drugs with low inclusion rates in 2012 that were also on the
list of commonly used drugs with low inclusion rates in our 2011 report; they are noted in
Table 3. An additional 3 of the 11 low-inclusion drugs in 2012 were not on the list of
drugs most commonly used by dual eligibles in the 2011 report.

The remaining 3 drugs included by less than 75 percent of formularies in 2012 were
among the top 200 drugs commonly used by dual eligibles in 2011 and had lower
inclusion rates in 2012 than in 2011. One of these drugs, carisoprodol, was put on the
Drug Enforcement Agency’s (DEA) schedule IV of federally controlled substances.41
This may explain why its inclusion rate fell from 88 percent in 2011 to 73 percent in
2012. Formulary inclusion rates for the second drug, an insulin sensitizer called
rosiglitazone maleate, fell from 92 percent in 2011 to 66 percent in 2012. This
pronounced drop may be explained by guidance issued by the U.S. Food and Drug
Administration (FDA) in mid-2011 that restricted access to the drug because of an
increased risk of heart attack.42 The third drug, esomeprazole magnesium, was recently
found to potentially cause serious complications in individuals suffering from
osteoporosis.

Low formulary inclusion rates may require dual eligibles to obtain a nonformulary drug.
There are several means by which dual eligibles can obtain a nonformulary drug, all of
which require them to take additional action. Obtaining therapeutically alternative drugs
requires that dual eligibles get new prescriptions from their doctors. Dual eligibles may
also submit statements of medical necessity from their physicians as part of appeals to
obtain coverage of nonformulary drugs. Finally, dual eligibles may switch to Part D
plans that include their drugs, with the new coverage becoming effective the following
month.

Plan formularies increased the percentage of commonly used drugs subject to
utilization management tools between 2011 and 2012
Of the unique drugs that compose the list of commonly used drugs, Part D plan
formularies increased the percentage subject to utilization management tools from an
average of 19 percent in 2011 to an average of 24 percent in 2012. Among the
formularies, those for plans with premiums below the regional benchmark increased this
percentage slightly less, from an average of 19 percent in 2011 to an average of

41
   The rule was finalized in January 2012. The DEA’s schedule lists drugs and other substances that are
controlled—i.e., to which access is limited—because of the potential for abuse. Accessed at
http://www.usdoj.gov on February 14, 2012.
42
   FDA, FDA Drug Safety Communication, Updated Risk Evaluation and Mitigation Strategy (REMS) to
Restrict Access to Rosiglitazone-containing Medicines Including Avandia, Avandamet, and Avandaryl,
May 18, 2011. Accessed at http://www.fda.gov on February 22, 2012.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 14 – Marilyn Tavenner


22 percent in 2012. See Table 4 for a breakdown of the percentage of unique drugs to
which Part D plan formularies apply utilization management tools in 2011 and 2012.

     Table 4: Part D Plan Formularies’ Application of Utilization Management Tools to
     Commonly Used Drugs, 2011 to 2012
      Percentage of Unique Drugs                 Number of          Percentage of         Number of
                                                                                                             Percentage of
      to Which Utilization                      2011 Part D           2011 Part D        2012 Part D
                                                                                                           2012 Part D Plan
      Management Tools Are                            Plan                  Plan               Plan
                                                                                                               Formularies
      Applied                                   Formularies          Formularies         Formularies
      40% to 49%                                            14                   6%                  31               11%
      30% to 39%                                            29                  12%                  59               22%
      20% to 29%                                            75                  30%                  92               34%
      10% to 19%                                            76                  31%                  54               20%
      Less than 10%                                         55                  22%                  36               13%
          Totals                                          249                100%*                   272             100%
     *Percentages do not add to 100 percent because of rounding. 

     Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2012. 



This increase in plan formularies’ application of utilization management tools results
primarily from an increase in the rate at which formularies apply quantity limits to the
unique drugs that make up commonly used drugs. In 2012, plan formularies applied such
quantity limits to an average of 21 percent of unique drugs, up from 16 percent in 2011.43
Formularies applied the other two utilization management tools—prior authorization and
step therapy—at virtually the same rates in 2012 as in 2011, with each being applied to
an average of 3 percent of unique drugs.

Although there has been an overall increase, wide variation remains in the rate at which
plan formularies apply utilization management tools. In 2012, plan formularies apply
utilization management tools to between 0 and 49 percent of the unique drugs. More
specifically, formularies apply quantity limits to between 0 and 46 percent of unique
drugs, prior authorization to between 0 and 28 percent, and step therapy to between 0 and
22 percent.

Looking at enrollment across plans provides a slightly different picture than looking only
at plans themselves. On average, plan formularies in 2012 apply utilization management
tools to 24 percent of unique drugs. However, dual eligibles tend to be enrolled in plans
with formularies that apply these tools at a slightly higher rate; in 2012, the median plan
weighted by dual-eligible enrollment applies such tools to 26 percent of unique drugs.
This is an increase over 2011, when the median plan weighted by dual-eligible
enrollment applied utilization management tools to 21 percent of unique drugs.
Similarly, the median plan weighted by overall Medicare enrollment applies these tools
to at least 26 percent of unique drugs in 2012, up from 23 percent in 2011.

Both dual eligibles and all Medicare beneficiaries tend to be enrolled in plans with
formularies that apply utilization management tools to between 20 and 40 percent of
unique drugs. In 2012, 66 percent of dual eligibles and 65 percent of all Medicare

43
  This change may be due to an increase in voluntary reporting of certain quantity limits that CMS does
not require to be reported.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 15 – Marilyn Tavenner


beneficiaries were enrolled in plans with formularies in this range. Table 5 provides a
breakdown of dual eligibles and Medicare beneficiaries’ enrollment in Part D plans by
the plans’ formularies’ application of utilization management tools.

   Table 5: Beneficiary Enrollment in Part D Plans by Application of Utilization 

   Management Tools to Commonly Used Drugs, 2011 to 2012

                                                                    Percentage of                               Percentage of
    Percentage of Unique Drugs to             Percentage of                               Percentage of
                                                                         Medicare                                    Medicare
    Which Plan Formularies Apply              Dual Eligibles                              Dual Eligibles
                                                                     Beneficiaries                               Beneficiaries
    Utilization Management Tools              Enrolled, 2011                              Enrolled, 2012
                                                                    Enrolled, 2011                              Enrolled, 2012
    40% to 49%                                            18%                 12%                      22%                21%
    30% to 39%                                            14%                    24%                   22%                  23%
    20% to 29%                                            26%                    17%                   44%                  42%
    10% to 19%                                            39%                    39%                    2%                    4%
    Less than 10%                                           4%                    7%                    9%                  10%
        Totals                                          100%*                 100%*                 100%*                  100%
    *Percentages do not add to 100 percent because of rounding. 

    Source: OIG analysis of dual-eligible enrollment and Medicaid beneficiary enrollment by rates of utilization management tool

    application to drugs commonly used by dual eligibles. 



Further, although utilization management tools control access to drugs, they also remain
important tools for managing costs in Medicare and ensuring appropriate utilization of
drugs. For example, carisoprodol drugs saw the greatest increase in the application of
quantity limits. Such limits—in addition to formularies’ low inclusion rates for these
drugs—may be intended to ensure appropriate utilization, as these drugs were recently
added to the DEA’s schedule of federally controlled substances.

CONCLUSION

When establishing formularies and applying utilization management tools, Part D plans
need to balance Medicare beneficiaries’ needs for adequate prescription drug coverage
with the need to contain costs for themselves and for the Part D program. By law, Part D
plan formularies do not have to include every available drug. Rather, to meet CMS’s
formulary requirements, they must include at least two drugs in each therapeutic category
or class. For example, for each of the 11 drugs that this memorandum report identifies as
being included by less than 75 percent of Part D plan formularies, all Part D plan
formularies cover at least one therapeutically alternative drug. Part D plan formularies
may also institute utilization management tools to ensure appropriate utilization as well
as to control costs.

For the drugs commonly used by dual eligibles, we found that the rate of formulary
inclusion is high with some variation. On average, Part D plan formularies include
96 percent of the commonly used drugs. One Part D plan formulary includes as little as
83 percent of the commonly used drugs. Formulary inclusion rates are similar for PDPs
and MA-PDs. Further, formularies for Part D plans with premiums below the regional
benchmark include the commonly used drugs at a rate similar to that of Part D plan
formularies overall.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 16 – Marilyn Tavenner


Inclusion rates for the 191 drugs commonly used by dual eligibles are largely unchanged
compared with those from OIG’s 2011 memorandum report. Part D plan formularies
include roughly the same percentage of these commonly used drugs in 2012 as they did
in 2011. Enrollment in plans that cover at least 90 percent of unique drugs increased,
with 99 percent of dual eligibles enrolled in such plans.

Although dual eligibles, like all Medicare beneficiaries, are largely enrolled in plans that
apply utilization management tools to a higher than average percentage of unique drugs,
this increase is largely a result of an increase in plans’ use of quantity limits. Plan
formularies still vary widely in the rates at which they apply utilization management tools
to unique drugs.

Because some variation exists in Part D plan formularies’ inclusion of the commonly
used drugs and in their application of utilization management tools to these drugs, some
dual eligibles may need to use alternative methods to access the drugs they take. They
could appeal prescription drug coverage decisions, switch prescription drugs, or switch
Part D plans. These scenarios require additional effort by dual eligibles and may result in
administrative barriers to accessing certain prescription drugs.

As mandated by the ACA, OIG will continue to monitor the extent to which Part D plan
formularies cover drugs that dual eligibles commonly use. In addition, OIG will continue
to monitor Part D plan formularies’ application of utilization management tools to these
drugs.

This memorandum report is being issued directly in final form because it contains no
recommendations. We have included the list of the 200 drugs most commonly used by
dual eligibles. If you have comments or questions about this memorandum report, please
provide them within 60 days. Please refer to report number OEI-05-12-00060 in all
correspondence.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 17 – Marilyn Tavenner


APPENDIX A

Section 3313 of the Patient Protection and Affordable Care Act of 2010

SEC. 3313. OFFICE OF THE INSPECTOR GENERAL STUDIES AND REPORTS.

(a) STUDY AND ANNUAL REPORT ON PART D FORMULARIES’ INCLUSION
OF DRUGS COMMONLY USED BY DUAL ELIGIBLES.—

(1) STUDY.—The Inspector General of the Department of Health and Human Services
shall conduct a study of the extent to which formularies used by prescription drug plans
and MA-PD plans under Part D include drugs commonly used by full benefit dual
eligible individuals (as defined in section 1935(c)(6) of the Social Security Act
(42 U.S.C. 1396u–5(c)(6)).

(2) ANNUAL REPORTS.—Not later than July 1 of each year (beginning with 2011), the
Inspector General shall submit to Congress a report on the study conducted under
paragraph (1), together with such recommendations as the Inspector General determines
appropriate.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 18 – Marilyn Tavenner


APPENDIX B

Table B-1: 200 Drugs Commonly Used by Dual Eligibles
                                                                              Number of        Percentage of
                            Sample    Projected    95-Percent Confidence
 Generic Name                                                                Formularies        Formularies
                              Size*     Drugs*                   Interval
                                                                               Including           Including

 Furosemide                   4,337   14,685,805   13,193,887 – 16,177,723          272                  100%
 Lisinopril                   3,638   13,441,780   12,115,557 – 14,768,002          272                  100%
 Hydrocodone
 bitartrate/acetaminophen     3,788   12,265,705   10,187,490 – 14,343,921          272                  100%
 Simvastatin                  3,323   12,200,581   10,886,194 – 13,514,968          271                  100%
 Levothyroxine sodium         3,708   12,148,646   10,757,336 – 13,539,956          272                  100%
 Potassium chloride           3,029   10,184,469    8,784,636 – 11,584,303          272                  100%
 Omeprazole                   2,829    9,651,497    8,339,152 – 10,963,842          272                  100%
 Metformin hydrochloride
 (HCl)                        2,313    8,676,241     7,659,708 – 9,692,774          272                  100%
 Amlodipine besylate          2,300    8,363,812     7,211,958 – 9,515,666          272                  100%
 Atorvastatin calcium         2,072    8,190,308     7,053,038 – 9,327,578          222                   82%
 Warfarin sodium              2,473    7,736,287     6,301,924 – 9,170,649          272                  100%
 Metoprolol tartrate          2,000    7,109,660     6,139,709 – 8,079,612          272                  100%
 Clopidogrel bisulfate        1,863    6,939,176     5,890,222 – 7,988,131          272                  100%
 Hydrochlorothiazide          1,676    6,829,480     5,641,558 – 8,017,402          272                  100%
 Albuterol sulfate            1,903    6,749,306     5,721,342 – 7,777,270          272                  100%
 Atenolol                     1,676    6,656,182     5,608,415 – 7,703,949          272                  100%
 Metoprolol succinate         1,582    5,947,902     4,974,663 – 6,921,140          270                   99%
 Gabapentin                   1,520    5,101,476     4,220,207 – 5,982,745          272                  100%
 Esomeprazole magnesium       1,308    5,098,976     4,155,417 – 6,042,535          193                   71%
 Sertraline HCl               1,411    4,738,678     3,646,257 – 5,831,099          272                  100%
 Zolpidem tartrate            1,284    4,266,954     3,513,634 – 5,020,274          272                  100%
 Lansoprazole                 1,151    4,176,391     3,223,654 – 5,129,128          236                   87%
 Citalopram hydrobromide      1,154    4,110,952     2,627,240 – 5,594,664          272                  100%
 Ranitidine HCl               1,332    4,103,165     3,361,383 – 4,844,946          272                  100%
 Glipizide                    1,033    4,044,091     3,240,677 – 4,847,505          272                  100%
 Alendronate sodium            949     4,042,433     3,284,602 – 4,800,264          272                  100%
 Isosorbide mononitrate       1,148    3,781,351     2,987,563 – 4,575,139          272                  100%
 Valsartan                    1,022    3,707,643     2,917,377 – 4,497,909          264                   97%
 Quetiapine fumarate          1,446    3,706,606     2,939,067 – 4,474,146          272                  100%
 Trazodone HCl                1,169    3,671,406     3,061,488 – 4,281,325          272                  100%
 Montelukast sodium           1,025    3,612,948       2736246 – 4489650            271                  100%
 Clonidine HCl                 901     3,608,763       2610281 – 4607245            272                  100%
 Divalproex sodium            1,465    3,576,329       2535872 – 4616786            272                  100%
 Carvedilol                   1,033    3,554,671       2945928 – 4163414            272                  100%
 Fluticasone/salmeterol       1,038    3,539,979       2835106 – 4244852            237                   87%
 Pantoprazole sodium          1,005    3,535,665       2953627 – 4117703            240                   88%
 Tramadol HCl                 1,075    3,524,890       2812406 – 4237374            272                  100%
 Digoxin                      1,059    3,474,737        2793941 - 4155533           272                  100%
 Oxycodone
 HCl/acetaminophen             971     3,434,934        2457792 - 4412076           272                  100%
                                                                                           continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 19 – Marilyn Tavenner

Table B-1: 200 Drugs Commonly Used by Dual Eligibles, continued
                                                                           Number of        Percentage of
                           Sample    Projected   95-Percent Confidence
 Generic Name                                                             Formularies        Formularies
                             Size*     Drugs*                  Interval
                                                                            Including           Including

 Diltiazem HCl               1,037   3,412,223       2651112 - 4173334           272                  100%
 Escitalopram oxalate        1,067   3,361,299       2782036 - 3940562           226                   83%
 Donepezil HCl               1,153   3,327,287       2728469 - 3926104           272                  100%
 Prednisone                   908    3,221,210       2647192 - 3795227           272                  100%
 Insulin glargine, human
 recombinant analog           879    3,116,960       2525959 - 3707962           269                   99%
 Enalapril maleate            823    3,114,860       2433873 - 3795847           272                  100%
 Paroxetine HCl               886    2,970,274       2321417 - 3619132           272                  100%
 Alprazolam                   843    2,965,959       2387894 - 3544024       Excluded             Excluded
 Spironolactone               739    2,894,286       2183730 - 3604841           272                  100%
 Risperidone                 1,103   2,864,033       2237878 - 3490187           272                  100%
 Fluticasone propionate       771    2,796,087       2217498 - 3374676           272                  100%
 Ibuprofen                    773    2,694,287       2164457 - 3224117           272                  100%
 Lovastatin                   700    2,646,252       2085719 - 3206785           267                   98%
 Venlafaxine HCl              881    2,631,793       1884901 - 3378686           272                  100%
 Pioglitazone HCl             720    2,630,131       2031147 - 3229114           271                  100%
 Naproxen                     790    2,593,580       1921730 - 3265429           272                  100%
 Propoxyphene/
 acetaminophen                826    2,544,654       2064770 - 3024538       Excluded             Excluded
 Mirtazapine                  817    2,459,380       1900636 - 3018124           272                  100%
 Nitroglycerin                676    2,412,856       1857936 - 2967776           272                  100%
 Risedronate sodium           638    2,328,091       1688961 - 2967221           213                   78%
 Rosuvastatin calcium         605    2,324,733       1666051 - 2983416           243                   89%
 Allopurinol                  660    2,305,299       1807758 - 2802841           272                  100%
 Ezetimibe/simvastatin        539    2,281,341       1695437 - 2867245           172                   63%
 Tiotropium bromide           585    2,271,519       1683066 - 2859973           272                  100%
 Olanzapine                   930    2,225,593       1642272 - 2808913           272                  100%
 Fluoxetine HCl               704    2,210,005       1676917 - 2743093           272                  100%
 Cyclobenzaprine HCl          712    2,208,315       1766234 - 2650395           242                   89%
 Nifedipine                   587    2,184,461       1672322 - 2696600           271                  100%
 Triamterene/
 hydrochlorothiazide          583    2,151,470       1644770 - 2658171           272                  100%
 Ipratropium/albuterol
 sulfate                      518    2,146,990       1469609 - 2824372           266                   98%
 Bupropion HCl                669    2,092,615       1537431 - 2647798           272                  100%
 Human insulin neutral
 protamine
 hagerdorn/regular human
 insulin                      579    2,089,492       1576428 - 2602556           272                  100%
 Metoclopramide HCl           558    2,045,974       1484240 - 2607708           272                  100%
 Duloxetine HCl               649    2,018,238       1509781 - 2526695           272                  100%
 Tamsulosin HCl               568    2,008,282       1486550 - 2530014           271                  100%
 Fexofenadine HCl             663    1,999,433       1470782 - 2528085           240                   88%
 Oxycodone HCl                637    1,993,053       1248484 - 2737622           270                   99%
 Amitriptyline HCl            551    1,990,104       1428406 - 2551802           272                  100%
 Glyburide                    574    1,979,902       1490571 - 2469232           272                  100%
 Oxybutynin chloride          577    1,956,602       1387744 - 2525461           271                  100%
                                                                                        continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 20 – Marilyn Tavenner

Table B-1: 200 Drugs Commonly Used by Dual Eligibles, continued
                                                                            Number of        Percentage of
                            Sample    Projected   95-Percent Confidence
 Generic Name                                                              Formularies        Formularies
                              Size*     Drugs*                  Interval
                                                                             Including           Including

 Celecoxib                     542    1,951,785       1475384 - 2428186           240                   88%
 Morphine sulfate              559    1,944,457       1273695 - 2615219           272                  100%
 Losartan potassium            464    1,926,721       1429114 - 2424328           272                  100%
 Famotidine                    587    1,889,265       1383531 - 2394999           269                   99%
 Ezetimibe                     470    1,859,398       1252463 - 2466333           258                   95%
 Lisinopril/
 hydrochlorothizide            470    1,842,345       1396106 - 2288583           271                  100%
 Phenytoin sodium
 extended                      672    1,807,778       1357338 - 2258218           272                  100%
 Azithromycin                  570    1,792,085       1566126 - 2018043           272                  100%
 Amlodipine
 besylate/benazepril           472    1,771,154       1277515 - 2264793           263                   97%
 Pravastatin sodium            457    1,756,636       1212294 - 2300978           271                  100%
 Promethazine HCl              530    1,726,657       1320104 - 2133210           255                   94%
 Levofloxacin                  541    1,677,469       1469043 - 1885894           248                   91%
 Valsartan/
 hydrochlorothizide            442    1,675,897       1151485 - 2200309           263                   97%
 Triamcinolone acetonide       465    1,638,579       1299882 - 1977277           272                  100%
 Ciprofloxacin HCl             519    1,611,117       1397358 - 1824875           272                  100%
 Polyethylene glycol 3350      573    1,582,521       1145034 - 2020008       Excluded             Excluded
 Latanoprost                   366    1,579,313        999644 - 2158983           264                   97%
 Pregabalin                    544    1,555,936       1149681 - 1962192           272                  100%
 Carbamazepine                 653    1,548,840       1126173 - 1971506           272                  100%
 Sulfamethoxazole/
 trimethoprim                  515    1,537,819       1296125 - 1779512           272                  100%
 Meclizine HCl                 458    1,530,711       1134681 - 1926741           263                   97%
 Fentanyl                      511    1,528,398       1050797 - 2005999           272                  100%
 Carisoprodol                  514    1,523,632        996317 - 2050946           199                   73%
 Mometasone furoate            460    1,504,992       1033429 - 1976556           270                   99%
 Memantine HCl                 578    1,470,854       1170138 - 1771570           272                  100%
 Meloxicam                     388    1,464,145       1030222 - 1898068           270                   99%
 Topiramate                    520    1,457,016        850357 - 2063676           272                  100%
 Ziprasidone HCl               556    1,446,603        574246 - 2318960           272                  100%
 Acetaminophen with
 codeine                       399    1,434,600       1009935 - 1859265           272                  100%
 Aripiprazole                  580    1,428,529       1031445 - 1825614           272                  100%
 Fenofibrate
 nanocrystallized              472    1,359,334       1055971 - 1662698           221                   81%
 Clonazepam                    517    1,351,688        982369 - 1721007       Excluded             Excluded
 Tolterodine tartrate          416    1,314,991       1005040 - 1624941           228                   84%
 Estrogens, conjugated         381    1,311,282        863950 - 1758615           240                   88%
 Lorazepam                     417    1,306,594        998485 - 1614703       Excluded             Excluded
 Glimepiride                   356    1,289,174        851327 - 1727022           272                  100%
 Amoxicillin                   418    1,257,789        939066 - 1576512           272                  100%
 Insulin regular, human        374    1,256,184        910927 - 1601440           272                  100%
 Ramipril                      375    1,255,814        874340 - 1637288           266                   98%
 Cephalexin monohydrate        409    1,250,553       1034309 - 1466797           272                  100%
                                                                                         continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 21 – Marilyn Tavenner

Table B-1: 200 Drugs Commonly Used by Dual Eligibles, continued
                                                                               Number of        Percentage of
                               Sample    Projected   95-Percent Confidence
 Generic Name                                                                 Formularies        Formularies
                                 Size*     Drugs*                  Interval
                                                                                Including           Including

 Lidocaine                        329    1,246,987        785982 - 1707992           269                   99%
 Clozapine                        343    1,224,932        279540 - 2170325           272                  100%
 Buspirone HCl                    390    1,191,990        835238 - 1548741           272                  100%
 Verapamil HCl                    337    1,191,624        825285 - 1557962           272                  100%
 Baclofen                         396    1,170,146        664247 - 1676045           272                  100%
 Brimonidine tartrate             321    1,165,063        776923 - 1553203           272                  100%
 Glyburide/metformin HCl          293    1,156,580        742359 - 1570801           268                   99%
 Ropinirole HCl                   341    1,146,087        798195 - 1493979           272                  100%
 Lactulose                        363    1,141,046        764364 - 1517728           272                  100%
 Isosorbide dinitrate             315    1,129,644        713004 - 1546284           272                  100%
 Hydroxyzine HCl                  318    1,109,764        705599 - 1513929           251                   92%
 Propranolol HCl                  372    1,109,183        661977 - 1556389           272                  100%
 Benztropine mesylate             547    1,085,890        741371 - 1430409           272                  100%
 Ipratropium bromide              287    1,082,885        744368 - 1421402           272                  100%
 Carbidopa/levodopa               369    1,080,702        806051 - 1355353           272                  100%
 Temazepam                        247    1,067,644        576409 - 1558879       Excluded             Excluded
 Rosiglitazone Maleate            250    1,060,782        700262 - 1421302           180                   66%
 Hydralazine HCl                  302    1,042,882        708441 - 1377323           272                  100%
 Diazepam                         316    1,037,764        639871 - 1435657       Excluded             Excluded
 Raloxifene HCl                   274    1,019,231        619027 - 1419435           272                  100%
 Nystatin                         345    1,011,486        728013 - 1294960           272                  100%
 Sitagliptin phosphate            272    1,008,877        674685 - 1343068           271                  100%
 Insulin aspart                   288    1,000,026        720934 - 1279118           259                   95%
 Neutral protamine
 hagedorn, human insulin
 isophane                         243     983,481         615817 - 1351145           272                  100%
 Felodipine                       237     982,218         207778 - 1756658           267                   98%
 Amoxicillin/
 potassium clavulanate            289     946,810         762446 - 1131174           272                  100%
 Nitrofurantoin macrocrystal      312     945,590         687395 - 1203786           264                   97%
 Benazepril HCl                   260     937,695         568591 - 1306799           271                  100%
 Folic acid                       230     874,301         570174 - 1178429       Excluded             Excluded
 Lithium carbonate                341     868,164         510514 - 1225813            272                100%
 Gemfibrozil                      247     861,901         527971 - 1195832           272                  100%
 Levetiracetam                    333     859,610         599818 - 1119402           272                  100%
 Doxazosin mesylate               244     857,633         584525 - 1130740           272                  100%
 Lamotrigine                      364     857,597         601909 - 1113286           272                  100%
 Doxycycline hyclate              324     848,531         589213 - 1107849           272                  100%
 Aspirin/dipyridamole             241     834,516         537845 - 1131187           272                  100%
 Colchicine                       261     834,188         442023 - 1226354           272                  100%
 Diclofenac sodium                242     833,173         559917 - 1106430           272                  100%
 Travoprost                       236     830,131       528,679 - 1,131,583          236                   87%
 Terazosin HCl                    194     815,795         563406 - 1068183           271                  100%
 Estradiol                        226     815,044         429758 - 1200330           272                  100%
                                                                                            continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 22 – Marilyn Tavenner

Table B-1: 200 Drugs Commonly Used by Dual Eligibles, continued
                                                                                                      Number of    Percentage of
                                    Sample        Projected        95-Percent Confidence
 Generic Name                                                                                        Formularies    Formularies
                                      Size*         Drugs*                       Interval
                                                                                                       Including       Including

 Diphenoxylate HCl/atropine              210         809,881              504818 - 1114944                  236             87%
 Finasteride                             234         796,833              461202 - 1132463                  272           100%
 Dicyclomine HCl                         240         795,973               523817- 1068129                  239             88%
 Eszopiclone                             232         787,150              467844 - 1106455                  168             62%
 Budesonide                              241         760,794              369378 - 1152210                  272           100%
 Dorzolamide HCl/
 timolol maleate                         193         755,718              463277 - 1048158                  272           100%
 Metolazone                              192         743,961              424989 - 1062933                  271           100%
 Megestrol acetate                       247         734,198               476455 - 991941                  272           100%
 Irbesartan                              206         708,918              406569 - 1011268                  124             46%
 Insulin lispro                          194         697,182               424507 - 969858                  236             87%
 Solifenacin succinate                   201         692,920               420471 - 965370                  239             88%
 Olmesartan medoxomil                    186         682,523               428135 - 936912                  202             74%
 Timolol maleate                         175         680,521              359267 - 1001774                  272           100%
 Amiodarone HCl                          194         673,811               429122 - 918500                  272           100%
 Olmesartan/
 hydrochlorothiazide                     136         671,025              303900 - 1038149                  202             74%
 Tramadol HCl/
 acetaminophen                           214         661,553               365944 - 957163                  238             88%
 Clotrimazole/
 betamet diprop                          207         658,680               440329 - 877031                  233             86%
 Tizanidine HCl                          236         651,966               429197 - 874735                  269             99%
 Methylprednisolone                      160         651,291              296663 - 1005918                  272           100%
 Methocarbamol                           218         630,227               322937 - 937517                  236            87%
 Cilostazol                              168         627,132               358096 - 896168                  272           100%
 Fluconazole                             207         614,764               471735 - 757793                  272           100%
 Oxcarbazepine                           201         607,650               229494 - 985806                  272           100%
 Irbesartan/
 hydrochlorothiazide                     132         597,953               272441 - 923465                  123             45%
 Sucralfate                              205         594,980               396840 - 793120                  272           100%
 Metronidazole                           208         582,146               436251 - 728040                  272           100%
 Hydrocortisone                          189         577,352               311485 - 843220                  272           100%
 Bumetanide                              151         566,568               289593 - 843543                  272           100%
 Ketoconazole                            191         562,166               360215 - 764117                  272           100%
 Prednisolone acetate                    165         560,873               384412 - 737333                  272           100%
 Olopatadine HCl                         155         558,911               333324 - 784497                  249             92%
 Labetalol HCl                           172         554,598               319726 - 789471                  271           100%
 Sevelamer HCl                           171         544,742               301870 - 787613                  177             65%
 Dutasteride                             124         542,207               277954 - 806460                  231             85%
 Insulin aspart
 protamine/insulin aspart                143         541,749               327249 - 756249                  259             95%
 Losartan/
 hydrochlorothiazide                     183         536,132               312843 - 759421                  271           100%
 Bimatoprost                             147         520,009               234135 - 805882                  253             93%
 Methadone HCl                           172         519,198               179316 - 859081                  268             99%
 Levalbuterol tartrate                   141         516,901              268,774 - 765,027                 119             44%
 Loratadine                              166         513,975              321,300 - 706,650             Excluded       Excluded
Source: Office of Inspector General (OIG) analysis of drugs commonly used by dual eligibles, 2012.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 23 – Marilyn Tavenner


APPENDIX C

Nine Drugs Commonly Used by Dual Eligibles and Not Covered Under Part D


                Generic Name                                    Reason Excluded Under           Part D
                Alprazolam*                                                           Benzodiazepine
                Clonazepam*                                                           Benzodiazepine
                Diazepam*                                                             Benzodiazepine
                Folic acid*                                               Vitamin or mineral product
                Lorazepam*                                                            Benzodiazepine
                Polyethylene glycol 3350*                                     Nonprescription drug
                                                                   No longer available in the United
                Propoxyphene/acetaminophen                                                    States
                Temazepam*                                                            Benzodiazepine
                Loratadine                                                      Nonprescription drug
               Source: Office of Inspector General analysis of formulary inclusion of drugs commonly used
               by dual eligibles, 2012.
               * These drugs were also on the 2011 report’s list of drugs commonly used by dual eligibles
               and not covered under Part D.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 24 – Marilyn Tavenner


APPENDIX D

Formulary Inclusion of Stand-Alone Prescription Drug Plans* and Medicare
Advantage Prescription Drug Plans** by Region

Table D-1: PDP Formulary Inclusion
                                                                                    Average
 PDP                                                    Number of                 Formulary           Minimum
 Region        State(s)                                    PDPs               Inclusion Rate              Rate        Maximum Rate
 1             Maine, New Hampshire                               28             95%                   86%                  99%
               Connecticut, Massachusetts,
 2             Rhode Island, Vermont                              30             95%                   86%                  99%
 3             New York                                           29             95%                   86%                  99%
 4             New Jersey                                         30             94%                   86%                  99%
               Delaware, the District of
 5             Columbia, Maryland                                 31             95%                   86%                  99%
 6             Pennsylvania, West Virginia                        36             95%                   86%                  100%
 7             Virginia                                           30             95%                   86%                  99%
 8             North Carolina                                     30             95%                   86%                  99%
 9             South Carolina                                     32             95%                   86%                  99%
 10            Georgia                                            30             95%                   86%                  99%
 11            Florida                                            33             95%                   86%                  99%
 12            Alabama, Tennessee                                 32             95%                   86%                  99%
 13            Michigan                                           34             95%                   86%                  99%
 14            Ohio                                               33             95%                   86%                  100%
 15            Indiana, Kentucky                                  31             95%                   86%                  99%
 16            Wisconsin                                          29             95%                   86%                  99%
 17            Illinois                                           33             95%                   86%                  100%
 18            Missouri                                           30             95%                   86%                  99%
 19            Arkansas                                           30             95%                   90%                  99%
 20            Mississippi                                        30             94%                   86%                  99%
 21            Louisiana                                          30             94%                   86%                  99%
 22            Texas                                              33             95%                   86%                  99%
 23            Oklahoma                                           30             94%                   86%                  99%
 24            Kansas                                             31             95%                   86%                  99%
               Iowa, Minnesota, Montana,
               Nebraska, North Dakota,
 25            South Dakota, Wyoming                              33             95%                   86%                  99%
 26            New Mexico                                         30             95%                   86%                  99%
 27            Colorado                                           28             95%                   86%                  99%
 28            Arizona                                            30             95%                   86%                  99%
 29            Nevada                                             29             95%                   86%                  99%
 30            Oregon, Washington                                 30             94%                   86%                  99%
 31            Idaho, Utah                                        33             94%                   86%                  99%
 32            California                                         33             95%                   86%                  99%
 33            Hawaii                                             25             94%                   86%                  99%
 34            Alaska                                             25             95%                   90%                  99%
Source: Office of Inspector General (OIG) analysis of formulary inclusion of drugs commonly used by dual eligibles, 2012.

*PDP.
**MA-PD.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
Page 25 – Marilyn Tavenner

Table D-2: MA-PD Formulary Inclusion by Region
                                                               Number                  Average
 MA-PD                                                          of MA-               Formulary    Minimum    Maximum
 Region***        State(s)                                         PDs           Inclusion Rate       Rate       Rate
 1                Maine, New Hampshire                           31                  95%           94%        97%
                  Connecticut, Massachusetts,
 2                Rhode Island, Vermont                          56                  96%           90%        99%
 3                New York                                       183                 96%           87%        100%
 4                New Jersey                                     28                  95%           90%        100%
                  Delaware, the District of Columbia,
 5                Maryland                                       29                  96%           94%        100%
 6                Pennsylvania, West Virginia                    133                 97%           87%        100%
 7                North Carolina, Virginia                       119                 96%           94%        100%
 8                Georgia, South Carolina                        129                 96%           90%        100%
 9                Florida                                        254                 96%           85%        100%
 10               Alabama, Tennessee                             86                  95%           83%        97%
 11               Michigan                                       63                  96%           91%        100%
 12               Ohio                                           75                  96%           90%        100%
 13               Indiana, Kentucky                              83                  96%           94%        99%
 14               Illinois, Wisconsin                            133                 96%           88%        100%
 15               Arkansas, Missouri                             117                 96%           90%        99%
 16               Louisiana, Mississippi                         81                  96%           90%        99%
 17               Texas                                          152                 95%           90%        99%
 18               Kansas, Oklahoma                               62                  95%           87%        100%
                  Iowa, Minnesota, Montana,
                  Nebraska, North Dakota, South
 19               Dakota, Wyoming                                105                 96%           88%        100%
 20               Colorado, New Mexico                           60                  97%           91%        100%
 21               Arizona                                        69                  95%           90%        99%
 22               Nevada                                         40                  95%           90%        100%
 23               Idaho, Oregon, Utah, Washington                154                 96%           90%        100%
 24               California                                     228                 96%           90%        100%
 25               Hawaii                                         21                  96%           90%        100%
Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2012.
*Region 26, which covers Alaska, has no MA-PDs available for 2012.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012 (OEI-05-12-00060)
